                                                    UNITED STATES OF AMERICA
                                             FEDERAL TRADE COMMISSION
                                                      WASHINGTON, D.C. 20580



Office of Inspector General




                                                             November 14, 2007

   Chairman Majoras:

   In accordance with the Accountability of Tax Dollars Act of 2002, we are responsible for conducting
   audits of the financial statements of the Federal Trade Commission. In our audits of the
   Commission for fiscal years 2007 and 2006, we found:

        •     The financial statements are presented fairly, in all material respects, in conformity with U.S.
              generally accepted accounting principles;

        •     The Commission had no material weaknesses in internal control over financial reporting
              (including safeguarding assets);

        •     No reportable instances of noncompliance with laws and regulations we tested.

   The following sections discuss in more detail these conclusions as well as our conclusions on
   Management’s Discussion and Analysis and other supplementary information. They also present
   information on the objectives, scope, and methodology of our audit.

                                      Objectives, Scope, and Methodology

   Federal Trade Commission management is responsible for (1) preparing the financial statements in
   conformity with U.S generally accepted accounting principles; (2) establishing, maintaining, and
   assessing internal control to provide reasonable assurance that the broad control objectives of
   FMFIA are met; and (3) complying with applicable laws and regulations.

   We are responsible for obtaining reasonable assurance about whether (1) the financial statements are
   presented fairly, in all material respects, in conformity with U.S. generally accepted accounting
   principles; and (2) management maintained effective internal control that provides reasonable, but
   not absolute, assurance the following objectives are met:

        •     Financial reporting: Transactions are properly recorded, processed, and summarized to
              permit the timely and reliable preparation of financial statements in conformity with U.S.
              generally accepted accounting principles, and assets are safeguarded against loss from
              unauthorized acquisition, use, or disposition.
   •    Compliance with applicable laws and regulations: Transactions are executed in accordance
       with (1) laws governing the use of budgetary authority, (2) other laws and regulations that
       could have a direct and material effect on the financial statements, and (3) any other laws,
       regulations, or government-wide policies identified by OMB audit guidance.

We are also responsible for (1) testing compliance with selected provisions of laws and regulations
that could have a direct and material effect on the financial statements and for which OMB audit
guidance requires testing and (2) performing limited procedures with respect to certain other
information appearing in the Commission’s Performance and Accountability Report. In order to
fulfill these responsibilities, we:

   •   examined, on a test basis, evidence supporting the amounts and disclosures in the financial
       statements;

   •   assessed the accounting principles used and significant estimates made by Commission
       management;

   •   evaluated the overall presentation of the financial statements;

   •   obtained an understanding of the Commission and its operations, including its internal
       control related to financial reporting (including safeguarding of assets), compliance with
       laws and regulations (including execution of transactions in accordance with budget
       authority), and performance measures reported in Management’s Discussion and Analysis;

   •   tested relevant internal controls over financial reporting and compliance with applicable laws
       and regulations, and evaluated the design and operating effectiveness of internal control;

   •   considered the Commission’s process for evaluating and reporting on internal control and
       financial management systems under the Federal Managers’ Financial Integrity Act
       (FMFIA); and

   •   tested compliance with selected provisions of laws and regulations.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or fraud,
losses, or noncompliance may nevertheless occur and not be detected. We also caution that
projecting our evaluation to future periods is subject to the risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may deteriorate.

We did not test compliance with all laws and regulations applicable to the Commission. We limited
our tests of compliance to those required by OMB audit guidance and other laws and regulations that
had a direct and material effect on the Commission’s financial statements for the fiscal year ended


                                                  2
September 30, 2007. We caution that noncompliance may occur and not be detected by these tests
and that such testing may not be sufficient for other purposes.

                                 Opinion on Financial Statements

The Commission’s balance sheets as of September 30, 2007 and 2006, and its related statements of
net cost, changes in net position, budgetary resources, and custodial activity, with accompanying
notes for the fiscal years then ended, are presented fairly, in all material respects, in conformity with
U.S. generally accepted accounting principles.

                                 Consideration of Internal Control

In planning and performing our audits, we considered the Federal Trade Commission’s internal
control over financial reporting and compliance. We did this to determine our procedures for
auditing the financial statements and to comply with OMB audit guidance, not to express an opinion
on internal control. Accordingly, we do not express an opinion on internal control over financial
reporting and compliance or on management’s assertion on internal control included in
Management’s Discussion and Analysis.

However, for the controls we tested, we found no material weaknesses in internal control over
financial reporting (including safeguarding assets) and compliance. A material weakness is a
significant control deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented or
detected. Our internal control work would not necessarily disclose all material weaknesses.

We found certain matters involving the control environment that we do not consider significant
deficiencies. We are communicating these matters to the Commission’s management, along with
our recommendations for improvement, in a separate letter.

                              Compliance with Laws and Regulations

Our tests for compliance with selected provisions of laws and regulations disclosed no instances of
noncompliance that would be reportable under U.S. generally accepted government auditing
standards or OMB audit guidance. However, the objective of our audit was not to provide an
opinion on overall compliance with laws and regulations. Accordingly, we do not express such an
opinion.

                                 Consistency of Other Information

The Commission’s Management’s Discussion and Analysis, and other accompanying information
contain a wide range of data, some of which are not directly related to the financial statements. We
did not audit and do not express an opinion on this information. However, we compared this
information for consistency with the financial statements and discussed the methods of measurement
and presentation with Commission officials. Based on this limited work, we found no material
inconsistencies with the financial statements or nonconformance with OMB guidance.
                                                   3
We performed our work in accordance with U.S. generally accepted government auditing standards
and OMB audit guidance.

While this report is intended solely for the information and use of the Federal Trade Commission,
the Office of Management and Budget and the Congress, it is also a matter of public record, and its
distribution is, therefore, not restricted.




                                             Inspector General
                                             Federal Trade Commission




                                                4
